OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/PERU’S
ENVIRONMENTAL ACTIVITIES
AUDIT REPORT NO. 1-527-12-008-P
SEPTEMBER 19, 2012




SAN SALVADOR, EL SALVADOR

Office of Inspector General


September 19, 2012

MEMORANDUM

TO:              USAID/Peru Mission Director, Richard Goughnour

FROM:            Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:         Audit of USAID/Peru’s Environmental Activities (Report No. 1-527-12-008-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft and have included them in their entirety in
Appendix II.

The report contains 13 recommendations to improve USAID/Peru’s oversight of its
environmental activities. On the basis of actions that the mission took, we determined that final
action has been taken on Recommendations 5, 11, and 13.

On the basis of actions that mission officials said they plan to take, we determined that
management decisions were reached on Recommendations 1, 3, 4, 6, 7, 8, 9, 10, and 12.
Please provide the Audit Performance and Compliance Division in the USAID Office of the Chief
Financial Officer with the necessary documentation to achieve final action.

A management decision was not reached on Recommendation 2. Please provide written notice
within 30 days of any action planned or taken to implement this recommendation.

I want to express my appreciation for the cooperation and courtesy extended to my staff during
the audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
www.usaid.gov/oig
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


     Peru Bosques Was Significantly Behind Schedule ................................................................. 5 


     Cordillera Azul National Park Will Not Be Sustainable by 2013 .............................................. 6 


     Annual Reports Have Not Accurately Represented 

     the Mission’s Environment Portfolio ........................................................................................ 7 


     Mission’s Monitoring and Evaluation Were Weak ................................................................... 9 


     Chemonics Was Not Using Its Information Management Systems....................................... 13 


     Two Projects Did Not Follow Marking Requirements ............................................................ 14 


Evaluation of Management Comments................................................................................... 17 


Appendix I—Scope and Methodology .................................................................................... 20 


Appendix II—Management Comments ................................................................................... 22 



Abbreviations

The following abbreviations appear in this report:

ADS                Automated Directives System
AOR                agreement officer’s representative
CIMA               Centro de Conservacion Investigacion y Manejo de Areas Naturales
COR                contracting officer’s representative
DQA                data quality assessment
FY                 fiscal year
PFSI               Peru Forest Sector Initiative
PMP                performance management plan
PPR                performance plan and report
REDD               Reducing Emissions from Deforestation and Degradation
TraiNet            Training Results and Information Network
UN                 United Nations
USFS               U.S. Forest Service
SUMMARY OF RESULTS 

In 2006 the United States signed a trade promotion agreement with the Government of Peru. In
addition to market access, the agreement covers environmental protection. It requires both
countries to uphold their domestic environmental laws and to “maintain and implement laws and
all other measures to fulfill obligations under covered multilateral environmental agreements.”
Other provisions of the trade promotion agreement addressed:

   Improving forest sector governance.

   Promoting legal trade in timber products.

   Upholding environmental protections.

   Conserving biodiversity.

   Implementing the environmental cooperation agreement the two countries signed on
    July 24, 2006, which emphasizes building capacity in enforcing environmental laws like
    those against illegal logging.

To help Peru fulfill both agreements, USAID/Peru included in its current environmental portfolio
activities to improve the government’s environmental policy and strengthen environmental
institutions so that they can promote sustainable forest management and protect biodiversity.

The Regional Inspector General/San Salvador conducted this audit to determine whether
USAID/Peru’s environmental activities were achieving their primary goals. The audit covered
three of the four largest projects that USAID manages in Peru (shown in Table 1), accounting
for 84 percent of its bilateral environmental assistance.

                     Table 1. Audited USAID/Peru Environmental Programs
                                                           Type of        Amount
                Project                  Implementer                                         Dates
                                                           Award         ($ million)
                                                                                         7/8/11–7/7/16
Peru Bosques                            Chemonics        Contract            38.6
                                        U.S. Forest      Cooperative         14.0        5/26/09–4/1/12
Peru Forest Sector Initiative*
                                        Service          agreement           17.0        9/1/11–8/31/16
Promoting Long-Term Sustainability of
                                        The Field        Cooperative
Parque Nacional Cordillera Azul                                                4.8       8/5/08–2/4/13
                                        Museum           agreement
(Cordillera Azul National Park)
    Source: USAID/Peru.

    * The Peru Forest Sector Initiative consists of two different agreements that include other countries,
    but only the Peru amounts are shown above.

Peru Bosques. Bosques is the Spanish word for forests, and this project, implemented by
Chemonics, was designed to improve forest governance and environmental management,
conserve sustainable tropical forests, and increase forest-based livelihoods in keeping with the
U.S.-Peru Trade Promotion Agreement and other international agreements. The project was to


                                                                                                          1
help the Government of Peru implement a new forestry law to control deforestation and reduce
greenhouse gas emissions.

Through various activities with the Peruvian forest authorities, the Ministry of Environment, and
the World Bank Forest Carbon Partnership Facility, the project is also helping the government
prepare to participate in the United Nation’s (UN’s) Reducing Emissions from Deforestation and
Forest Degradation (REDD) climate change initiative. REDD was designed to build capacity in
developing countries to reduce emissions from deforestation and forest degradation, to conserve
and sustainably manage forests, and to increase and protect forest carbon stocks. The initiative
assigns a monetary value to the carbon stored in forests, giving developing countries an incentive
not to cut down the trees. Peru Bosque activities address the main causes of deforestation and
forest degradation, which include illegal logging, lack of forest governance, conversion of forests
to agricultural land, informal mining, and an economically uncompetitive timber industry.

Peru Forest Sector Initiative (PFSI). This project, implemented by the U.S. Forest Service
(USFS), supports Peru in complying with the U.S.-Peru Trade Promotion Agreement and its
associated U.S.-Peru Environmental Cooperation Agreement. This means leading efforts to
support forest sector governance, such as strengthening institutions, enforcing laws, managing
forest concessions, strengthening regulatory controls and verification mechanisms for harvested
trees, conducting a forest inventory, and working with indigenous communities on forest
management.         The initiative promotes biodiversity conservation activities in threatened,
biologically significant areas of the Amazon.

Promoting Long-Term Sustainability of Parque Nacional Cordillera Azul. This project,
implemented by the Field Museum of Natural History in Chicago (Field Museum), aims to protect
the biological diversity of Cordillera Azul National Park and ensure sustained funding for the park’s
long-term management. The park protects many plants and animals that can be found only within
its borders. According to the Field Museum’s rapid inventory in 2001, an estimated 6,000 plant
species, 800 bird species, 82 amphibian and reptile species, 110 fish species, and 71 large
mammal species reside in the park. Project objectives include training a park guard force to
conduct border patrols, developing an early warning system to detect threats to the park, securing
financing for the park, and strengthening its management. Disseminating REDD lessons learned
is an additional objective.

The total amount obligated for these three projects as of March 31, 2012, was $36,902,017 and
the amount expended was $20,337,637.

The audit determined that the projects had moderately improved Peru’s environmental policy
and strengthened its environmental institutions. On June 15, 2011, the Peruvian Congress
passed a landmark forestry law written with USAID support and assistance through PFSI; the
law regulates the use of forestlands and resources and establishes protections for the
indigenous people living in forests. The collaboration among indigenous communities, regional
governments, and the national government was particularly noteworthy because the same
parties clashed in 2009.*



*
 Protests erupted because the government, in an effort to encourage investment under the U.S.-Peru
Free Trade Agreement, approved energy and mining projects in areas inhabited by indigenous people
without consulting them or studying the projects’ environmental impact. The protests ended in a June
2009 confrontation in the province of Bagua that cost many protesters and police their lives.

                                                                                                   2
Both the Peru Bosques and PFSI projects strengthened Peru’s environmental institutions. Peru
Bosques carried out an analysis of the government’s technical, legal, and institutional capacity to
manage forests and designed a strategy and action plan for strengthening institutions, developing
information systems, and establishing enforcement structures. PFSI designed and implemented a
forest inventory system and a national forestry information system, assisted natural resource
management units of regional governments, and led training and study tours for targeted
recipients. Both projects have met with indigenous people to explain the provisions of the U.S.­
Peru Trade Promotion Agreement and obtain the people’s feedback and buy-in.

Despite these achievements, Peru Bosques was significantly behind schedule (page 5). The
project started about 4 months later than planned, and numerous work plan tasks remained
unfinished. The project’s spending levels were also significantly below the amounts approved in
the first-year budget. While the delays were mostly beyond the control of USAID or its
implementing partner, revisions to the budget and implementing schedule are required.

Furthermore, the audit found that Cordillera Azul National Park will not be sustainable by 2013
(page 6). The Field Museum’s plan to secure long-term funding was unsuccessful.

In addition, the audit disclosed the following problems and concerns:

	 Annual reports have not accurately represented the achievements of the environmental
   portfolio (page 7). The indicators on which the reports provide data generally do not pertain
   to the two largest environmental projects.

	 The mission’s monitoring and evaluation were weak (page 9). The mission did not have an
   approved country development cooperation strategy, have a performance management plan
   (PMP) for environmental work, prepare complete data quality assessments (DQAs),
   maintain all necessary documents in project files, enforce partners’ use of the Training
   Results and Information Network (TraiNet), approve two project PMPs, or conduct two
   required evaluations.

	 Chemonics was not using its information management systems for monitoring and
   evaluation (page 13). Staff members had not received sufficient training on the systems and
   were reluctant to use them.

	 Two projects did not follow marking requirements (page 14). Both mission and project
   personnel were confused about the policy on waivers of the requirements.

To address these issues, the Regional Inspector General/San Salvador recommends that
USAID/Peru:

1. 	Require Chemonics to adjust its budget and prepare a realistic second-year work plan
    (page 6).

2. 	Implement a new plan for achieving sustainability for Cordillera Azul National Park,
    discontinue USAID funding to the park, or perform a cost-benefit analysis to justify additional
    USAID support absent a plan for long-term sustainability (page 7).

3. 	 Include in the 2012 performance plan and report indicators that more completely measure
     the achievements of USAID/Peru’s environmental program (page 9).


                                                                                                 3
4. 	 Implement a PMP that includes the indicators mentioned in Recommendation 3 to track its
     environmental activities (page 12).

5. 	 Issue a letter to USAID/Washington’s Bureau of Policy, Planning and Learning requesting
     approval of the country development cooperation strategy for Peru (page 12).

6. 	 Perform data quality assessments in accordance with USAID requirements (page 13).

7. 	Provide training to contracting officer’s representatives (CORs) and agreement officer’s
    representatives (AORs) about the importance of establishing and maintaining files for
    projects in accordance with USAID guidance and relevant mission orders (page 13).

8. 	Require its partners to verify that training information is being entered into TraiNet as
    required by the Automated Directives System (ADS) (page 13).

9. 	 Work with USFS and Chemonics to develop PMPs that meet ADS standards, and approve
     them (page 13).

10. Evaluate PFSI and the project to sustain the Cordillera Azul National Park (page 13).

11. Ask Chemonics to improve its Internet-based management information systems to improve
    project management (page 14).

12. Determine which USAID-funded assets under its PFSI and Cordillera Azul National Park
    awards are unmarked, and mark them or execute waivers as appropriate (page 16).

13. Provide branding and marking instructions and guidance to	 PFSI and Cordillera Azul
    National Park partners (page 16).

Detailed findings appear in the following section. Appendix I describes the audit scope and
methodology. Our evaluation of management comments is on page 17, and the full text of
management appears in Appendix ll.




                                                                                            4
AUDIT FINDINGS 

Peru Bosques Was Significantly
Behind Schedule
USAID/Peru’s contract with Chemonics requires a start-up work plan for the first 100 days. It
was to be provided as part of the contractor’s technical proposal. However, Chemonics did not
complete it until February 2012, about 7 months late. It was incorporated into the first year work
plan, and many of the tasks in this plan were also delayed. Of the 46 activities identified in the
project’s first-year work plan, 22 activities (48 percent) were not progressing as planned.

The slow pace of implementation is reflected in the project’s spending. As shown in Table 2,
only about half (48 percent) of the planned budget was used during Year 1 (July 8, 2011, to
June 30, 2012).      Furthermore, most of the technical assistance is to be provided under
“Training–Strategic Funds” and “Subcontractors,” yet less than 10 percent of the budgeted
amounts for these line items was spent. As a result, USAID spent relatively more money on
salaries and indirect costs and less money on activities that would meet project objectives.

           Table 2. Approved Year 1 Budget Compared With Year 1 Expenditures 

                              as of June 2012 (not audited) 

                                           ($) 


                                                                                    Percentage
                                  Approved
                                                 Year 1 Budget                     of Approved
          Cost Category            Year 1                           Difference
                                                 Expenditures*                        Year 1
                                   Budget
                                                                                   Budget Spent
  Salaries-Fringe-Allowances      1,901,409        1,349,257           552,152          71
  Travel-Other Direct Costs-
                                    846,816        1,516,247          (669,431)        179
  Equipment
  Training-Strategic Funds        1,061,050           51,158         1,009,892           5
  Subcontractors                  2,854,181          241,056         2,613,125           8
  Indirect costs [Overhead
  and General and                 1,336,423          760,564           575,859          57
  Administrative]
  Fixed Fee                         519,015          254,295           264,720          49
  Total                           8,518,894        4,124,624         4,394,270          48
   Source: Chemonics.

   * The amounts reported from June 2011 to April 2012 are actual expenditures; those for May and
   June are based on estimates. Expenditures do not equal the total, which reflects an uncategorized
   adjustment by Chemonics (a reduction of $47,953).

These delays contributed to an excessive funding pipeline. According to ADS 602.3.2,
“Maximum Length of Forward Funding,” program managers, with some exceptions, should not
make obligations “for more than 12 months beyond the end of the fiscal year in which the
obligation takes place.” However, as of March 31, 2012, Peru Bosques was forward-funded for
30 months. This might not have been the case had the budget been adjusted to account for the
delays the program was experiencing. USAID/Peru was aware of the excessive forward funding;

                                                                                                  5
according to mission officials, Peru Bosques has several large procurements scheduled that
should reduce the excess, including a $4 million subcontract for a logging chain-of-custody
tracking system.

USAID/Peru and Chemonics offered several reasons for falling behind schedule. Several tasks
depended on passage of the forestry law, and the regulations associated with it—such as a
tracking system to ensure trees being sold were logged legally—were still being worked
on. The Peruvian Congress was unlikely to pass the regulations before the summer of 2013
because more meetings, discussions, and negotiations were expected during the intervening
months; consequently, activities valued at nearly $500,000 have been postponed. Changes in
Peruvian governments at both the national and regional levels after the 2011 elections also
contributed to delays.

Chemonics also had difficulty staffing the office in Lima with key personnel, recruiting forest
specialists for the three regional offices, registering as a business, and setting up a bank
account. Other difficulties that contributed to the delays include working with indigenous
communities in remote locations and coordinating closely with USFS and other partners to avoid
duplication of efforts. USAID and Chemonics said that all the problems have been resolved and
that spending should increase significantly.

The effect of these delays is that many activities may be poorly implemented—if Chemonics
rushes to make up for lost time—or not implemented at all. In addition, USAID has paid
Chemonics overhead expenses during this time with few results to show for its investment.

To correct these problems, we make the following recommendation.

   Recommendation 1. We recommend that USAID/Peru require Chemonics to adjust its
   budget and prepare a realistic second-year work plan.

Cordillera Azul National Park Will
Not Be Sustainable by 2013
ADS 201.3.3.3, “Results Framework,” states that development objectives “should show
progress toward project sustainability and a reduction of future USAID support as appropriate.”
Missions should “build the capacity of specific institutions and related governance systems” at
the appropriate levels to ensure that the results of any work done can last well into the future.

To achieve the long-term sustainability goal, the Field Museum planned to have a mechanism
by 2010 to fund the park’s management and protection. To obtain the needed funding, the Field
Museum planned to pursue two options: building an endowment fund and entering the REDD
carbon market incentive program (described on the next page). The Field Museum awarded a
subcontract to a Peruvian organization, Centro de Conservacion Investigacion y Manejo de
Areas Naturales (CIMA), to manage and protect the park. CIMA, in turn, entered into a 20-year
contract with the Peruvian Government that granted CIMA management rights to the park but
required the organization to obtain its own financing after the USAID assistance ends. As
manager of the park, CIMA is authorized to sell ecosystem services, such as carbon offsets and
ecotourism opportunities.




                                                                                               6
                                                 The audit found, however, that the park would not
 What Is a Carbon Offset? The monetary
                                                 be sustainable by February 2013 when the
 value assigned to stored carbon is called a
 forest carbon offset, equal to one metric ton
                                                 agreement ends because the funding sources
 of greenhouse gas. To comply with limits on     identified have proven unreliable. The Field
 carbon emissions set by the Kyoto Protocol      Museum expected to obtain a $40 million
 to the UN Framework Convention on Climate       endowment for the park. However, since the
 Change or to voluntarily reduce emissions,      economic downturn in 2008, no viable donors
 industrialized countries and companies can      have been willing to contribute. Obtaining funds
 buy carbon offsets to compensate for            through the REDD carbon market incentive
 emitting too much themselves.                   program has been very slow, partly because of
                                                 the failure of carbon markets to develop. In
 How Are Carbon Offsets Designed to
                                                 addition, methodologies and standards for
 Work? Carbon offsets can be traded in
 global markets and used to fund
                                                 validating, measuring, and monitoring carbon
 development and conservation. But there         credits keep changing, making certifying the
 are problems with carbon trading. The           park’s carbon store an ongoing process. Field
 United Nations Framework Convention on          Museum officials said pursuing REDD to sustain
 Climate Change has been unable to set           the park has been much more complicated and
 mandatory limits on greenhouse gas              time-consuming than envisioned.              They
 emissions for countries and cannot enforce      acknowledged it is extremely unlikely that carbon
 voluntary limits. And problems with             credits from the park will be available for
 specifics such as land rights, measuring        purchase by February 2013.
 emissions avoided, and verification have
 created low demand and low prices for
 carbon credits. A top member of a UN panel
                                             Neither USAID nor the Field Museum has a
 that met in Bangkok in September 2012       realistic backup plan for sustaining the park.
 declared that the clean development         They considered other ideas for raising funds,
 mechanism, which accredits projects to      like making the museum’s subpartner on the
 which credits may be applied, has           project a direct partner with USAID in a follow-on
 “essentially collapsed.”                    award, but these efforts would require additional
                                             USAID funds. The mission asked the Peruvian
                                             Government to absorb the park guards’ salaries,
but it has not agreed to do so. Ultimately, the park depends on continued assistance from
donors for its management and protection.

USAID has invested more than $10 million in the sustained protection of this park since 2003,
more than $2 million of which was specifically for the development of a long-term sustainability
plan. Without implementing a viable sustainability plan—one that is not heavily dependent on
REDD—additional taxpayer money may be spent on an unsustainable park.

   Recommendation 2. We recommend that USAID/Peru (1) implement a new plan for
   achieving sustainability for Cordillera Azul National Park, (2) discontinue USAID funding
   to the park, or (3) perform a cost-benefit analysis to justify additional USAID support
   absent a plan for long-term sustainability.

Annual Reports Have Not
Accurately Represented the
Mission’s Environmental Portfolio
According to ADS 200.6, the annual performance plan and report (PPR) records the results of
U.S. foreign assistance by fiscal year. The fiscal year (FY) 2010 and FY 2011 PPRs listed six
indicators used to measure USAID’s work in the environment (Table 3).

                                                                                                7
       Table 3. Indicators in the Performance Plan and Report, FYs 2010 and 2011
                                                                     Implementer(s) Providing
  Indicator
                                                                             Result


  Number of hectares under improved natural resource
                                                                   World Wildlife Fund
  management as a result of USG [U.S. Government] assistance


  Number of people with increased economic benefits derived
                                                                   World Wildlife Fund, the Field
  from sustainable natural resource management and
                                                                   Museum
  conservation as a result of USG assistance


  Number of policies, laws, agreements, or regulations promoting
  sustainable natural resource management and conservation         Ministry of Environment
  that are implemented as a result of USG assistance


  Number of stakeholders with increased capacity to adapt to the   The Mountain Institute,
  impacts of climate variability and change as a result of USG     Asociación Especializada para
  assistance                                                       el Desarrollo Sostenible

  Number of people receiving USG-supported training in global
  climate change including the Framework Convention on Climate
                                                                   The Mountain Institute
  Change, greenhouse gas inventories, mitigation, and
  adaptation analysis


  Number of people with increased adaptive capacity to cope with   The Mountain Institute,
  impacts of climate variability and change as a result of USG     Asociación Especializada para
  assistance                                                       el Desarrollo Sostenible



The purpose of the PPR is to provide transparency in programs and in performance reporting,
yet the six indicators above did not adequately take into account results achieved under the two
largest activities being implemented during FYs 2010 and 2011. The USFS and Field Museum
projects were largely absent from the reported results above. The results primarily came from
four smaller projects implemented by Asociación Especializada para el Desarrollo Sostenible,
the Mountain Institute, the Ministry of the Environment, and the World Wildlife Fund; they
accounted for only 21 percent of the funds being spent on environmental activities in Peru.
Table 4 shows the amount of funding for the six implementers that should have reported results
in the PPR.

         Table 4. Total Estimated Cost of USAID/Peru’s Environmental Activities
                             as of March 31, 2012 (unaudited)

                                                      Total Estimated
                                                                           Percent of Total
       Project Implementer                                  Cost
                                                                           Estimated Cost
                                                             ($)
       U.S. Forest Service                              14,014,908                 59
       The Field Museum                                  4,817,491                 20
       Ministry of Environment                           1,475,096                  6


                                                                                                    8
                                                     Total Estimated
                                                                        Percent of Total
       Project Implementer                                 Cost
                                                                        Estimated Cost
                                                            ($)
       Asociación Especializada para el Desarrollo
                                                        1,258,776                5
       Sostenible
       The Mountain Institute                           1,250,000                5
       World Wildlife Fund                              1,100,000                5
       Total                                           23,916,271              100
      Source: USAID/Peru.

      Note: Only projects with results in FYs 2010 and 2011 were included. Peru Bosques,
      implemented by Chemonics, was too new to report results for those years.

The PPR was not representative of the mission’s environment portfolio because the mission
chose not to add custom indicators to the document. The guidance states that missions “may
find that adding indicators is necessary to reflect the portfolio adequately.” The mission had the
opportunity to add custom indicators to capture the results of the two largest projects in the
PPR, but it did not do so in FYs 2010 and 2011. The mission’s environment officer explained
that representing only the smaller projects was an oversight and said that the mission would
include larger projects in future PPRs.

USAID and Department of State officials use the PPR to fulfill data needs and develop other
required documents, like the Congressional Budget Justification. Because various stakeholders
rely on it, a PPR that does not completely represent the mission’s environment portfolio could
lead to erroneous conclusions about the impact of the U.S. Government’s contributions to
Peru’s environmental programs.

   Recommendation 3.        We recommend that USAID/Peru include in the 2012
   performance plan and report indicators that more completely measure the achievements
   of USAID/Peru’s environmental program.

Mission’s Monitoring and
Evaluation Were Weak
According to ADS 200.3.5.5, “Evaluation and Monitoring”:

       To help understand whether projects are on track to achieve intended results,
       Missions should:

           (1) Plan how they will systematically monitor and evaluate progress toward
               those results,

           (2) Regularly monitor the achievements of programs and projects, and

           (3) Collect and analyze performance information to track progress toward
               planned results.

       Missions should then use this performance information as well as evaluation
       findings to influence decision making and resource allocations and then
       communicate results to advance organizational learning and inform stakeholders.


                                                                                                9
The audit determined that USAID/Peru’s monitoring and evaluation were weak in several areas.
As described below, the mission did not (1) have an approved country development cooperation
strategy, (2) have a PMP for its environmental objective, (3) prepare complete DQAs,
(4) maintain all necessary documents in project files, (5) enforce its partners’ use of TraiNet,
(6) approve two project PMPs, or (7) conduct two required evaluations.

Country Development Cooperation Strategy Not Approved. According to ADS 201.3,
“USAID Country Development Cooperation Strategy Content,” the strategy defines development
objectives to maximize the impact of development cooperation. The strategy includes sections
on the development context, challenges, and opportunities; the development hypothesis; the
results framework; monitoring, evaluation, and learning; program resources and priorities; and
management requirements.

The mission did not have an approved strategy, despite submitting one to USAID/Washington
for review in June 2010. According to USAID/Peru’s program officer, approval was delayed
because USAID/Washington was uncertain about what the strategy should include. In addition,
mission officials delayed the strategy because they wanted feedback on it from Peruvian
Government officials, many of whom were replaced after the presidential elections in June
2011. The mission believed that the strategy would be approved by the end of June 2012.

Without a clearly defined strategy, mission officials may disagree about which objectives should
be accomplished and how best to accomplish them. Moreover, USAID investments might not
be focused on areas that shape Peru’s overall stability and prosperity.

Mission PMP Not Developed. ADS 203.3.3.4, “Performance Management Plans,” requires
USAID teams to develop a PMP, but USAID/Peru had not developed one for its environmental
development objective. ADS 200.6 defines a PMP as a tool “to plan and manage the process of
monitoring, evaluating, and reporting progress toward achieving the various levels of the
approved [strategy] results framework.” Mission officials explained they were waiting for
approval of the Peru country development cooperation strategy, which is required before
developing a PMP to ensure that indicators align with the mission’s results framework. Once
that is approved, the mission intends to prepare PMPs for each of its three development
objectives in targeted areas: coca-free economic development, improved governance, and
sustainable management of natural resources. Because the PMP is an important management
tool, the absence of the PMP increases the likelihood that USAID/Peru will not meet its
objectives.

Data Quality Assessments Incomplete. ADS 203.3.5.3, “Conducting Data Quality
Assessments,” requires missions to perform DQAs and recommends the “review of data
collection, maintenance, and processing procedures to ensure that the procedures are
consistently applied and continue to be adequate.” USAID/Peru’s Mission Order 200.7 on
monitoring and evaluation, issued March 28, 2012, notes: “DQAs are used to ensure that the
USAID Mission/Office and Development Objective Team are aware of the strengths and
weaknesses of the data, and are aware of the extent to which the data integrity can be trusted
to influence management decisions.” The mission order provides the format to use when
performing a DQA for outcome indicators.

However, USAID/Peru did not prepare complete DQAs. On the prescribed format, the column
used to describe what USAID can do to address data limitations was incomplete. It did not
provide any data quality steps and did not explain why no steps were necessary. The mission
also chose to use a shorter, simplified format rather than the more detailed version. The lack of

                                                                                              10
high-quality DQAs increases the likelihood that USAID will receive poor data that can result in
poor decision making.

Project Files Incomplete. ADS 202.3.6.1, “Assessing Performance of Contractors and
Recipients,” lists CORs’ and AORs’ monitoring responsibilities for their assigned contracts or
agreements. One of the responsibilities cited and reiterated in their designation letters is that of
establishing and maintaining adequate work files.

The audit found that the AORs’ files were incomplete. The AOR for PFSI was unable to provide
the activity approval document, the branding and marking plan, or the security plan. The lack of
files was mainly due to confusion among USAID/Washington, USAID/Peru, and USFS over
responsibilities for filing project documents. The initial PFSI cooperative agreement involved
management by USAID/Washington, with some tasks being led by the mission. When the
mission took over the management of PFSI, it did not receive many of the initial documents.
Both the mission and USFS agreed that their communication with the AOR in Washington was
inadequate and contributed to the confusion. However, after the mission took the project over
under the follow-on award, communication and record keeping improved.

Files kept by the AOR for the Cordillera Azul National Park award were missing several
documents, including audit reports, the monitoring and evaluation plan, and DQAs. Some files
could not be found, while others were available only electronically. The AOR cited various
reasons for incomplete files, including the lack of time to organize, print, and file the documents.
Regarding the audit reports, the AOR mistakenly believed that reviewing and keeping them was
not the AOR’s responsibility.

Site visits were not documented. USAID/Peru’s Mission Order 200.7 on monitoring and
evaluation, issued March 28, 2012, requires technical teams to verify the quality of performance
data routinely through site visits and other means and provides a sample trip report to use in
documenting the visit. The USAID/Peru environment team leader explained that team members
performed site visits as needed and that he did not enforce the documentation of the visits.

Complete and well-organized files are an important part of project management. Without them,
project managers, supervisors, and auditors may not have important information needed to
perform their duties.

Information Not in the Training Results and Information Network. ADS 253.3.4.5.b,
“Participant Reporting,” requires the use of TraiNet, the official USAID Web-based training
management system. For selected awards, aggregated, in-country training data must be
entered at least quarterly. The awards with USFS and Chemonics both include this
requirement. All three audited projects conducted training activities, yet partner staff members
were uncertain whether their trainings were properly recorded in TraiNet. USFS and
Chemonics officials in Peru believed that their home offices were responsible for entering data
into TraiNet, but they admitted that they could not access the system to verify that entries had
been made. The Field Museum was never informed about TraiNet. The uncertainty occurred
because USAID officials relied on their partners to comply with this requirement. As a result,
TraiNet does not include all of USAID/Peru’s training activities.

Performance Management Plans Not Approved. Awards to USFS and Chemonics require
project PMPs, yet USAID had not approved either project’s PMP.



                                                                                                 11
USFS has been implementing PFSI since May 26, 2009, under two awards: an initial 3-year,
$14 million agreement, which ran from May 2009 to April 2012, and a 5-year, $17 million follow-
on, which runs from September 2011 to September 2016. Because USAID’s Economic Growth,
Agriculture, and Trade Bureau in Washington, D.C., managed the first agreement and did not
share all documentation with the mission, USAID/Peru could not provide auditors with a PMP
corresponding to the first 3 years. For the follow-on agreement, USFS prepared a draft PMP
dated May 2012, but it was incomplete. USAID/Peru asked for a revised PMP with custom
indicators and more details about each indicator.

The Chemonics PMP was unapproved as of May 2012, even though the contract started July 8,
2011. USAID’s contracting office personnel explained that they were working on a modification
that must be approved before the approval of the PMP. Negotiations between USAID and
Chemonics over the fixed-fee schedule and other issues have delayed the modification.

Because the PMP is an important management tool, its absence increases the likelihood that
these environmental activities will not meet their objectives.

Performance Evaluations Not Done. USAID’s evaluation policy, issued in January 2011,
explains: “Each operating unit is required to conduct at least one performance evaluation of
each large project it implements.” The recent mission order further specified that technical
teams must plan for external performance evaluations on all projects with budgets greater than
the benchmark budget, which is $2 million for environmental programs. The mission order
continues: “Performance evaluations must be timed so that the findings will be available as
decisions are made about new strategies, project designs, and procurements.”

However, the mission had not done a performance evaluation of its current project for Cordillera
Azul National Park, which began in 2008 with a total estimated cost of $4.8 million. Similarly,
the mission had not evaluated the $14 million PFSI award that began in 2009 and ended April 1,
2012. Because requirements were unclear, mission officials said they did not know they
needed to do the evaluations.

Mission officials said they intend to select an independent contractor later this year to perform
evaluations. The scope of work currently includes midterm and final evaluations for the Peru
Bosques and PFSI projects. The officials said USAID’s evaluation policy and the mission order
were only recently issued, but they acknowledged that evaluations for PFSI and the park project
would be useful. Because the mission’s $38.6 million Peru Bosques project works in many
areas covered by PFSI, any lessons learned from an evaluation of the expired PFSI agreement
would benefit both projects.

The problems mentioned in this finding, as well as the other findings, indicate that the mission’s
internal controls related to monitoring and evaluation should be strengthened. Poor internal
controls increase the likelihood of not meeting project objectives. Therefore, we make the
following recommendations to address these problems.

   Recommendation 4. We recommend that USAID/Peru implement a performance
   management plan that includes indicators to track its environmental activities.

   Recommendation 5. We recommend that USAID/Peru issue a letter to USAID’s
   Bureau of Policy, Planning and Learning requesting approval of the Peru country
   development cooperation strategy.


                                                                                               12
   Recommendation 6.       We recommend that USAID/Peru perform data quality
   assessments in accordance with USAID requirements and document the results.

   Recommendation 7. We recommend that USAID/Peru provide training to agreement
   and contracting officers’ representatives about the importance of establishing and
   maintaining files for projects in accordance with USAID guidance and relevant mission
   orders.

   Recommendation 8. We recommend that USAID/Peru require its partners to verify that
   training information is entered into Training Results and Information Network as required
   by the Automated Directives System.

   Recommendation 9. We recommend that USAID/Peru work with the U.S. Forest
   Service and Chemonics to develop performance management plans that meet
   Automated Directives System requirements and approve them.

   Recommendation 10. We recommend that USAID/Peru evaluate the Peru Forest
   Sector Initiative and the project for the Cordillera Azul National Park and document the
   results.

Chemonics Was Not Using Its
Information Management Systems
Mission officials said one of the key reasons for selecting Chemonics to implement Peru
Bosques was the organization’s use of Internet-based information management systems for
managing tasks and reporting. Chemonics envisioned using tools run by TeamDesk, a
customizable online database, to support work planning and monitoring and evaluation
functions. This platform would also permit financial planning at the activity level and allow
documents—scopes of work, reports, and final deliverables, etc.—to be uploaded so that they
would be easy to find. Chemonics also intended to use Smartsheet, a spreadsheet with project
management capabilities, as an activity planning tool. If used properly, it would allow interested
parties (including USAID managers and auditors) to assess the status of each task and
measure the project’s progress toward its goals.

However, information in the systems was not up-to-date at the time of the audit. TeamDesk
contained few documents, and Chemonics was still relying on paper files. Regarding
Smartsheet, Year 1 work plan tasks and dates in the database differed from those in the
approved, printed work plan. The COR was not aware of any changes to the work plan that
would account for the differences.

The chief of party agreed that staff members were not using the management information
systems as frequently as he would like even after 8 months of project implementation. While
training was provided to all regional users, the chief of party said that getting everyone to use
the systems had been challenging. Therefore, the monitoring specialist had to provide the audit
team with manually generated status reports of all activities. In addition, although the project’s
COR had access to these systems for tracking project implementation activities in real time, he
had not used them.

Unless everyone uses them, substantial effort may be wasted on systems that provide
incomplete information.

                                                                                               13
   Recommendation 11. We recommend that USAID/Peru ask Chemonics to improve its
   Internet-based management information systems to improve project management.

Two Projects Did Not Follow
Marking Requirements
ADS 320.3.3.1, “Co-branding and Co-marking,” states that the “USAID Identity and
implementer’s logo must both be visible with equal size and prominence on program materials
produced for program purposes.” However, two of the three audited projects were not following
USAID’s requirements.

Peru Forest Sector Initiative. According to the award agreement between USAID and USFS,
“All USAID-financed equipment and materials must be marked with the USAID red, white, and
blue emblem. . . . All locations receiving USAID financing must display signs marked with the
USAID red, white, and blue emblem” indicating participation by the United States.

However, USFS did not have the USAID logo in and around its office (as the following photo
illustrates) or on all project-funded equipment. The deputy chief of party thought this
requirement had been waived because, as a U.S. Government agency, USFS is not required to
use USAID markings. But USAID/Peru’s branding and marking specialist said there was no
waiver in place for USFS and that USFS never received training from USAID on branding and
marking.




                   The entrance to the USFS office does not bear the USAID logo.
                                   (Photo by PFSI, June 27, 2012)

Cordillera Azul National Park. The Cordillera Azul cooperative agreement and the branding
and marking plan correctly referenced these requirements. The agreement specifically states:
“Including the USAID identity is intended to acknowledge and thank the American people for
their generous contribution to, and support of, the project. Sustained protection of the Park is
not possible without USAID funding.”



                                                                                             14
However, while USAID markings were on posters, they were not on any park publications or on
any assets seen during site visits. We visited the main office in Tarapoto, where equipment had
been purchased for the project, and found that none of it had been marked. We then made a
site visit to one of the park’s 17 control points built, maintained, and furnished with equipment
from USAID funds, and saw no USAID markings of any kind (as is clear from the photo below).
We received photos of three other control points showing they did not have USAID logos.




                      This park control point is not marked with the USAID logo.
                                 (Photo by USAID/Peru, May 22, 2012)

These problems occurred because the AOR did not verify that implementers received training
and did not visit project sites to check branding and marking.

According to USAID/Peru’s branding and marking specialist, new implementing partners are
supposed to receive branding and marking training, but the Field Museum never did. The AOR
at the time of the audit was not the AOR when the Field Museum’s agreement began, and the
previous AOR left no record of providing training to Field Museum staff on branding and
marking.

The specialist said that verifying branding and marking is the AOR’s job. The designation letter
that every AOR receives clearly states this responsibility. But the AOR that auditors spoke with
thought that a site visit meant visiting the implementer’s main office. The AOR did that and
talked during the visit about branding and marking. The AOR and representatives of the Field
Museum said they had agreed verbally to a waiver of the branding and marking requirements.

The specialist, however, verified that no waivers of branding and marking requirements had
been approved. Further, the cooperative agreement clearly states that waivers must be
approved by the agreement officer, not the AOR.

Not having the USAID brand at project locations and on equipment denies USAID and
taxpayers credit for their efforts and investment. In the case of the park, USAID’s 9-year,
$10 million investment may end without USAID receiving acknowledgment. In the case of the

                                                                                              15
$31 million spent on PFSI, not all the stakeholders know who sponsored it.

   Recommendation 12. We recommend that USAID/Peru determine which USAID-
   funded assets under its Peru Forest Sector Initiative and Cordillera Azul National Park
   awards are unmarked and mark them or execute waivers as appropriate.

   Recommendation 13. We recommend that USAID/Peru provide branding and marking
   instructions and guidance to the Peru Forest Sector Initiative partner.




                                                                                             16
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft audit report, USAID/Peru agreed with 12 recommendations and
disagreed with 1. Summarized below are the comments and the audit team’s evaluation of
them.

Recommendation 1. USAID/Peru agreed and has instructed Chemonics to adjust its budget
and develop a FY 2013 work plan that takes into account the actual working environment. The
mission plans to complete these actions by October 31, 2012. Based on the mission’s
described actions, a management decision has been reached.

Recommendation 2. USAID/Peru disagreed, stating that our recommendation is based on a
“misinterpretation of the agreed meaning of sustainability” and that we “overlook the project's
actual progress towards improved sustainability”.

However, we note that the Field Museum’s award document states that “USAID funds will be
used to guarantee . . . long-term sustainability for the park and its management infrastructure.” .
The award also stipulates that by 2010 the Field Museum will have a “mechanism in place to
generate yearly funds for recurring management costs.” This failed to occur through either of
the financial mechanisms Field Museum pursued, an endowment or REDD.

Because Field Museum could not meet this deliverable, USAID/Peru extended the award
through February 2013 and provided $2 million more in funding to continue the pursuit of long-
term sustainability for the park. At the time of audit fieldwork in May 2012, less than a year
remained on the extension, and the Field Museum officials conceded that it was extremely
unlikely that carbon credits from the park would be available for purchase by the project end
date. The mission’s management response on August 29, 2012, states that the park “has
achieved substantial progress in generating new and sustainable sources of financial support
for the park” and “will have verified carbon credit to register and sell by the project end date in
February 2013.”

While progress toward a mechanism to generate recurring management costs is encouraging,
this still does not answer the question: At what point does the U.S. Government cease funding
park operations should they fail to become sustainable? We believe that USAID/Peru should
consider the costs and benefits of continued funding. Therefore, a management decision has
not been reached on this recommendation.

Recommendation 3. USAID/Peru agreed, saying that more in-depth reporting is needed. The
mission acknowledged that results achieved under PFSI have been underrepresented in its
reporting. It plans to fix these reporting deficiencies in the FY 2012 PPR by reporting on several
key environment activities and by adding two standard indicators. The mission plans to finish
the reporting for the FY 2012 PPR no later than December 31, 2012. Based on the mission’s
described actions, a management decision has been reached.

Recommendation 4. USAID/Peru agreed and will, as part of the recently approved country
development cooperation strategy, develop a PMP for each development objective. The


                                                                                                17
mission will complete the one for the environment by December 31, 2012. Based on the
mission’s described actions, a management decision has been reached.

Recommendation 5. USAID/Peru received approval of its country development cooperation
strategy on July 21, 2012. Accordingly, this recommendation is closed on issuance of this
report.

Recommendation 6. USAID/Peru agreed to perform data quality assessments as it completes
the FY 2012 PPR. The mission will also conduct mission-wide training to comply with the
mission order on monitoring and evaluation. The mission expects to complete these actions by
December 31, 2012. Based on the mission’s described actions, a management decision has
been reached.

Recommendation 7. USAID/Peru agreed to offer periodic training beginning in FY 2013 for all
COR/AORs in the mission on the importance of establishing and maintaining project files for the
awards they manage. The mission expects the training to be completed by March 2013. Based
on the mission’s described actions, a management decision has been reached.

Recommendation 8. USAID/Peru agreed to ensure that all implementers have access to
TraiNet and enter training information as prescribed. It will also routinely follow up with
implementers to ensure timely data entry. The mission will complete these actions by
December 31, 2012. Based on the mission’s described actions, a management decision has
been reached.

Recommendation 9. USAID/Peru agreed and in August 2012 approved a PMP that Peru
Bosques had submitted in May 2012. The mission was working with USFS to submit a PMP by
September 30, 2012, and anticipates approving it no later than December 31, 2012. Based on
the mission’s described actions, a management decision has been reached.

Recommendation 10. USAID/Peru agreed. It scheduled a final evaluation of the project for the
Cordillera Azul National Park, which it anticipated concluding in May 2013. The mission
scheduled a midterm evaluation for the Peru Forest Sector Initiative that should be finished by
June 2013. Based on the mission’s described actions, a management decision has been
reached.

Recommendation 11. USAID/Peru disagreed with the wording of the recommendation in the
draft report (which has been modified accordingly in this report) but indicated that the intent has
been met. Chemonics adjusted and improved its Internet-based management system, including
integrating a planning module with an accounting module. After the project’s regional office
personnel received training in June 2012, the COR visited Peru Bosques offices and confirmed
that the system was fully functional and that personnel were using it. In view of the actions
taken and the evidence provided, this recommendation is closed on issuance of this report.

Recommendation 12. USAID/Peru disagreed with the wording of the recommendation (which
has been revised in this report to include the option of issuing a waiver). On August 28, 2012,
the mission approved a branding and marking waiver for some assets used by the Field
Museum for the Cordillera Azul National Park project because of security concerns. For PFSI,
the mission is working with USFS to determine which USAID-funded assets are unmarked and
mark them by September 30, 2012. Based on the mission’s described actions, a management
decision has been reached.


                                                                                                18
Recommendation 13. USAID/Peru disagreed with the recommendation’s applicability to the
Field Museum (which we omitted in the revised recommendation shown in this report). The
Field Museum attended information sessions when the new branding and marking strategy was
issued and now has an approved branding and marking plan. The mission did, however,
provide USFS staff with instructions and guidance on branding and marking in August 2012. In
view of the actions taken and the evidence provided, this recommendation is closed on
issuance of this report.




                                                                                         19
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions in accordance with our audit objective. We believe that the
evidence obtained provides that reasonable basis.

The objective of the audit was to determine whether USAID/Peru’s environmental activities were
achieving their main goals to improve the Government of Peru’s environmental policy and
strengthen the ability of environmental institutions to promote sustainable forest management
and protect biodiversity. To make this determination, the audit team selected three activities
that accounted for 84 percent of USAID/Peru’s bilateral environment portfolio.  

The activities covered were implemented under four awards: the USFS 3-year, $14 million
PFSI, which ran from May 2009 to April 2012; the USFS 5-year, $17 million PFSI follow-on,
which runs from September 2011 to August 2016; the Chemonics 5-year, $38.6 million Peru
Bosques, which runs from July 2011 to July 2016; and the Field Museum’s 4.5-year, $4.8 million
Promoting Long-Term Sustainability of Parque Nacional Cordillera Azul, which runs from August
2008 to February 2013. As of March 31, 2012, USAID/Peru had obligated $36,902,017 and
expended $20,337,637 for its environmental activities covered under this audit.

We conducted audit fieldwork from May 14 to June 1, 2012, at USAID/Peru in Lima, as well as
in Tarapoto (San Martin Region) and Pucallpa (Ucayali Region). We visited and interviewed
staff members from the main and regional offices of USFS, Chemonics, and the Field Museum
and the offices of their subpartners, including indigenous organizations and an indigenous
university. We also met with various government officials.

As part of the audit, we assessed the significant internal controls USAID/Peru used to monitor
project activities and progress. The assessment included controls to determine whether the
mission (1) conducted and documented site visits to evaluate progress and monitor quality,
(2) reviewed and approved required assessments or evaluations, (3) reviewed progress reports
and work plans submitted by its implementers, and (4) reviewed and tested activities and
indicators used by its implementers and partners, We reviewed the mission’s annual
certification required by the Federal Managers’ Financial Integrity Act of 1982 to verify whether
the assessment cited any relevant weaknesses. We also reviewed prior environmental audit
reports for Latin America for any problems related to the audit objective.

Methodology
To answer the audit objective, we interviewed officials from USAID/Peru, USFS, Chemonics, the
Field Museum, subpartners, and both the federal and regional governments. For implementing
partners, we interviewed the chiefs and deputy chiefs of party, forestry specialists,
capacity-building specialists, the monitoring and evaluation specialist, and several other
employees. We also reviewed and analyzed relevant documents and data at the mission and
implementers’ offices. Documents included portions of ADS, annual work plans, quarterly


                                                                                               20
                                                                                      Appendix I


reports, selected agreements between USAID/Peru and its implementers, financial reports, and
a variety of environment-related materials. Furthermore, we compared the results reported by
implementers in their PMPs with those reported by USAID in its PPR.

We selected a sample of project implementation sites to visit based on feedback from USAID
and implementers. We audited key portions of all the projects. We chose sites based on time
and distance constraints and the need to cover all project areas. Since the testing and the site
visit selection were based on a judgmental, not a statistical sample, the results and conclusions
related to this analysis are limited to the items and areas tested and cannot be projected to the
entire audit universe.




                                                                                              21
                                                                                      Appendix II



MANAGEMENT COMMENTS 


DATE:          August 29, 2012

TO:            Jon Chasson, Regional Inspector General/San Salvador

FROM:          Richard J. Goughnour, USAID/Peru Mission Director /s/

SUBJECT: Comments to Audit of USAID/Peru’s Environmental Activities
______________________________________________________________________________

Thank you for giving USAID/Peru the opportunity to respond to the draft report of the Audit to
USAID/Peru’s Environmental Activities, per your memorandum dated July 23, 2012.

Below we have listed each of the main recommendations and findings of this audit. Following
each recommendation are USAID/Peru’s comments and suggestions for your consideration.
Additional comments on the body of the report are included in the last section of this
memorandum.

Recommendation 1. We recommend that USAID/Peru require Chemonics to adjust its budget
and prepare a realistic second year work plan that takes into account the actual working
environment.

USAID/Peru concurs with this recommendation. The Mission has instructed Chemonics to
develop its FY 2013 work plan under guidelines consistent with this recommendation, in a
participatory manner with other USAID partners and GOP agencies. A first draft is scheduled to
be submitted for USAID/Peru review on August 31, 2012. We anticipate the work plan will be
approved no later than October 31, 2012.

Recommendation 2. We recommend that USAID/Peru (1) develop, document, and implement
alternative plans for achieving sustainability for the Parque Nacional Cordillera Azul or (2)
discontinue USAID funding to the park or (3) perform a cost-benefit analysis to justify additional
USAID support absent a plan for long-term sustainability.

USAID/Peru does not concur with Recommendation No. 2. All three of the Recommendation's
options appear to be based on a misinterpretation of the agreed meaning of sustainability in the
context of the national park, and they overlook the project's actual progress towards improved
sustainability by the agreed standard.

First, USAID's award to the Field Museum of Chicago (FMC) calls for achieving level 5 of the
Index of Conservation Compatibility (ICC 5). An indicator for ICC 5 is a "reliable financial

                                                                                               22
                                                                                       Appendix II


source for recurring annual costs (e.g., carbon market for REDD)" -- see the award document,
page 13. The table on page 15 of the same document shows the following as an "Operational
Aspect" of ICC 5: "Stakeholders engaged in sustaining the park at all levels – local, regional,
national, and international," of which one indicator is "support groups address the basic needs of
the park."

Thus, there is no indication in ICC 5 that "sustainability" implies discontinuance of support for
the park from public resources like taxes or donor contributions. On the contrary, ICC 5 urges
that public support continue and be cultivated "at all levels." Furthermore, given that the park
serves a public interest, economic logic indicates that without public funds park financing would
be suboptimal.

ICC 5's standards are to be met by improving the financial sustainability of the park through
developing new sources of financing, including nongovernmental sources. And indeed the
project with the Cordillera Azul National Park has, through a sustained effort, achieved
substantial progress in generating new and sustainable sources of financial support for the park.

On July 31, 2012, a leading international accreditation agency, Verified Carbon Standard (VCS),
approved FMC's proposed method for projecting the amount of deforestation. This allows FMS
to credibly contrast actual deforestation with what would have happened in the absence of
conservation efforts. Having won methodological approval from this authoritative source, FMC
will proceed to perform final project validation for the method for calculating the amount of
deforestation averted, under a contract whose scheduled completion date is January 2013. As a
result of this validation, the project will have verified carbon credit to register and sell by the
project end date in February 2013.

When the final validation is complete, FMC will seek to put sales agreements in place for when
credits are registered. FMC will continue discussions with the five organizations that have
previously expressed interest in purchasing credits and who have requested that FMC contact
them when the credits are close to being available. FMC will also contact companies that have
publicly expressed interest in financing conservation and REDD, such as The Walt Disney
Company and Marriott. In addition, groups like Code REDD are being formed to help publicize
carbon credits like those of this project and to introduce them to corporations who are potential
buyers.

The Mission believes that this achievement represents substantial progress towards a new and
continuing source of financing for the park. Therefore, the Mission believes there is no
justification for changing plans or discontinuing support to the project. The Mission requests
that the recommendation be revised to read that the Mission should verify substantial progress
towards improving financial sustainability and that the revised recommendation be closed on the
basis of the progress described above.

Recommendation 3. We recommend that USAID/Peru report against different indicators or
develop custom indicators for inclusion in the 2012 performance plan and report to describe
more completely the achievements of USAID/Peru’s environmental program.



                                                                                                23
                                                                                         Appendix II


USAID/Peru agrees that more in-depth reporting is needed to more completely describe the
achievements of USAID/Peru’s environmental program. The Mission requests that
Recommendation 3 be modified to include a third option in order to accomplish this outcome:
fuller reporting on the results of Peru Forest Sector Initiative (PFSI), FMC and Peru Bosques.
To date, results achieved under PFSI and FMC have been under-represented in reports. Results
under Peru Bosques have not yet been fully reported under the currently established indicators
for FY 2011, given its relatively recent start-up.

The Mission believes that several key results of these three activities contribute directly to the
core indicators already used in FY 2011 and will be fully reported in the FY 2012 PPR.

Peru Bosques’ first year of implementation ended July 7, 2012, its first annual results report will
be included in the 2012 PPR and incorporated into the first three indicators of Table 3 (p. 8). In
the case of PFSI, indicators 1 and 3 of the same table will include its results.

Two additional standard indicators have been added in the FY 2012 OP: (1) quantity of
greenhouse gas emissions reduced or sequestered, and (2) number of people receiving training in
natural resources management and/or biodiversity conservation. Both Peru Bosques and AFSI
will report achievements against these two indicators.

We estimate closure of this recommendation by December 31, 2012, once these new indicators
are reported in the FY 2012 PPR.

Recommendation 4. We recommend that USAID/Peru develop a performance management plan
that includes indicators to track its environmental activities.

USAID/Peru concurs with this recommendation. The recently approved Country Development
Cooperation Strategy sets forth the basis for developing Performance Management Plans (PMPs)
for each Development Objective. The Mission will complete a PMP for Development Objective
3 by December 31, 2012.

Recommendation 5. We recommend that USAID/Peru issue a letter to USAID’s Bureau of
Policy, Planning, and Learning requesting the approval of its country development cooperation
strategy.

On July 21, 2012, LAC/SPO approved the USAID/Peru Country Development Cooperation
Strategy (CDCS). The CDCS is now fully approved, and this recommendation should be closed.

Recommendation 6. We recommend that USAID/Peru perform data quality assessments in
accordance with USAID requirements.

USAID/Peru concurs with this recommendation. The Mission will comply with ADS 203.3.5.3
and follow Mission Order 200.7 as it completes the 2012 PPR. Additionally, USAID/Peru will
do a Mission-wide training on the content of the Mission Order prior to the FY 2012 PPR. We
estimate closure of this recommendation by December 31, 2012, after submission of the FY 2012
PPR.


                                                                                                     24
                                                                                        Appendix II



Recommendation 7. We recommend that USAID/Peru provide training to contracting officer’s
representatives about the importance of establishing and maintaining files for the projects in
accordance with USAID guidance and relevant mission orders.

USAID/Peru concurs with this recommendation. As part of USAID/Peru’s general management
policy, in agreement with this recommendation, the Mission will offer the recommended training
periodically, starting at the beginning of FY 2013, for all COR/AORs in the Mission. This will
supplement the training that CORs/AORs already receive through the formal certification course
and the COR/AOR Designation Letter from the Contracting/Agreement Officer. We estimate
that this recommendation can be closed by March 2013 after the completion of this training.

Recommendation 8. We recommend that USAID/Peru require its partners to verify that training
information is being input into Training Results and Information Network as required by the
Automated Directive System.

USAID/Peru concurs with this recommendation. USAID/Peru will: (1) verify that all
implementers have access to the TraiNet; (2) verify that implementers have entered training
information (per the ADS, in-country training programs of two consecutive class days or more in
duration, or 16 contact hours or more scheduled intermittently should be recorded in TraiNet);
and, (3) set a plan to follow-up with implementers at regular intervals to ensure that data is being
entered on no less than a quarterly basis.

To ensure continued compliance with this requirement, USAID/Peru will: (1) modify any
applicable implementing instruments that do not already include a provision that requires
implementers to collect and enter the training information, (2) send a notice to AOR/CORs to
remind them of their responsibilities, include the TraiNet responsibilities in the COR/AOR
designation letter, and (3) conduct a training for AOR/CORs on their monitoring and reporting
responsibilities with respect to ADS 253. We anticipate that this recommendation can be closed
by December 31, 2012 with the completion of these actions.

Recommendation 9. We recommend that USAID/Peru work with U.S. Forest Service and
Chemonics, to develop and approve performance management plans that meet ADS standards.

The Mission concurs with this recommendation. The final version of Peru Bosques'
Performance Management Plan (PMP) was submitted to the Mission in May 2012 and approved
by USAID on August 3, 2012. USAID/Peru is working with U.S. Forest Service (USFS) to
develop its PMP, which will be submitted for review by September 30, 2012. Following review
and further revision, USAID/Peru anticipates approval of the USFS PMP and closure of this
recommendation by December 31, 2012.

Recommendation 10. We recommend that USAID/Peru perform an evaluation of the Peru
Forest Sector Initiative and Promoting Long-Term Sustainability of Parque Nacional Cordillera
Azul.

USAID/Peru concurs with this recommendation. The Mission recently established a mechanism


                                                                                                 25
                                                                                      Appendix II


for program evaluation in accordance with USAID Forward initiatives. We have scheduled a
final evaluation of the activity “Promoting Long-Term Sustainability of Parque Nacional
Cordillera Azul” to be concluded in May 2013. In addition, we have scheduled a mid-term
evaluation for the Peru Forest Sector Initiative to be concluded by June 2013. We anticipate that
recommendation can be closed by June 30, 2013, once these evaluations have been successfully
performed.

Recommendation 11. We recommend that USAID/Peru require Chemonics to improve project
management through the full implementation of its internet-based management information
systems.

USAID/Peru does not concur with this recommendation as currently drafted. Contractually,
USAID/Peru cannot require Chemonics to use the internet-based management system, as it is not
a deliverable within the contract. However, USAID/Peru believes that the intent of the
recommendation has been addressed as Chemonics has substantially implemented the system. It
was initially launched on May 15, 2012 for a three-month trial period. As a result of the trial,
more than 3,000 adjustments and improvements were made based on users’ suggestions and
needs. Improvements included the integration of a planning module with an accounting module.
To achieve full implementation, additional training of the project’s regional office personnel was
conducted in June 2012. During recent COR visits to Peru Bosques offices, the system for
managing tasks and reporting was fully functional and regional office staff were using the system
for reporting and getting approvals. The COR is also participating in the system and will
continue to consult with Chemonics when experience suggests additional functionality that can
be added. We therefore request that this recommendation be modified to read that “USAID/Peru
requests Chemonics to improve…” and that the revised recommendation be closed based on the
current state of implementation of the system as described above.

Recommendation 12. We recommend that USAID/Peru determine which USAID funded assets
under its Parque Nacional Cordillera Azul and Peru Forest Sector Initiative awards are
unmarked and proceed to mark them.

USAID/Peru does not concur with this recommendation as it is currently written. The Mission
requests that Recommendation 12 should be revised by adding "or executes waivers as
appropriate." On August 10, 2012 the Field Museum of Natural History submitted a request for
a waiver of branding and marking requirements on vehicles and equipment to be deployed in
regions identified by the U.S. Embassy as security sensitive due to ongoing Sendero Luminoso
terrorist activity. The corresponding Waiver No. FY-12-004-527-0423 was signed on August
28, 2012. Concurrently, USAID/Peru will determine which USAID funded assets are unmarked
under the PFSI award and proceed to mark them by September 30, 2012, at which time we
anticipate that this recommendation can be closed.

Recommendation 13. We recommend that USAID/Peru conduct branding and marking training
with Parque Nacional Cordillera Azul and Peru Forest Sector Initiative partners.

USAID/Peru does not concur with this recommendation as it is currently written, and requests
that it be revised (1) to replace "training" with "instructions and guidance" and (2) to delete


                                                                                                  26
                                                                                         Appendix II


reference to the Parque Nacional Cordillera Azul. Parque Nacional Cordillera Azul
implementing partner FMC attended information sessions when the new Branding and Marking
Strategy was issued and has an approved Branding and Marking Plan. We feel that FMC
understands and is following established procedures and that no further guidance is necessary.
With reference to the Peru Forest Sector Initiative activity, Mission staff will provide instructions
and guidance on branding and marking to PFSI staff during the last week of August 2012. At
that time the revised recommendation could be closed.


Body of the Report

Below are some suggested changes to consider before the final issuance of the audit report.

Page 1: The 2012-16 CDCS did not apply during the period of the audit. The same essential
points are made in the preceding paragraphs. Suggest deleting that sentence.

Page 1: Note that the Readiness Preparation Proposal was drafted in 2011 -- change the verb in
that sentence from "will coordinate" to "was designed to coordinate."

Page 2: The summary statement "moderately improved forest governance" should be modified to
take into account that USAID/Peru's environment program has only recently expanded to its
current size. The actual achievements in the last couple years have been historic: the
unprecedented degree of consultation allowing Peru to approve a critically important Forestry
Law despite an atmosphere of conflict; a program for improving forest management that the
international NGO report on illegal logging identified as the course to take in the future; and
approval in recent weeks of a globally innovative methodology for benchmarking deforestation
in the growing agricultural frontier surrounding the Cordillera Azul National Park (to give just
three examples). The draft appears to underestimate the degree of success achieved in a difficult,
scientifically demanding, and conflictive situation in Peru. USAID/Peru suggests the statement
to read "made important contributions to improving forest governance -- a long-term process
with many further challenges remaining."

Page 5: The last sentence before Table 2 implies that project objectives can be met without
paying salaries or indirect costs. Please re-write to clarify what was intended.

Page 5: Please double-check the figure for Actual Fixed Fee paid in Year 1. According to the
terms of the contract, the fees are not being paid until the contractor submits a performance
measure which is tied to the fees. Up to May 2012, USAID/Peru paid fixed fees in the total
amount of $4,367.33.

Page 6: The second paragraph implies that assistance can achieve results without "overhead"
expenses incurred in setting up project implementation systems. Please re-write to clarify what
was intended. Also, USAID/Peru is currently negotiating a fixed fee based on measurable
deliverables. USAID/Peru will not pay any fees until this negotiation is final and the percentage
is agreed upon with the contractor.



                                                                                                  27
                                                                                       Appendix II


Page 7: At the bottom of the page the draft notes that Cordillera Azul National Park will continue
to depend on public resources: "taxpayers" and "donors." ICC Level 5 is characterized as
follows: "Stakeholders engaged in sustaining the park at all levels – local, regional, national,
and international." The report should therefore be revised to clarify that dependable public
support is consistent with sustainability. (Given the public interest in the park, operating the
park without public financing would leave it at a suboptimal level.)

Page 8: Table 3 (draft report, p. 8) and Table 4 (p. 9) contains mistakes that USAID/Peru
requests to be corrected. There is no USAID/Peru implementing partner in the environment
portfolio with the name of Academia para el Desarrollo Educativa. The draft may be referring
to Asociación Especializada para el Desarrollo Sostenible (AEDES).

Page 10-11: With reference to the section “The mission was not maintaining important project-
related documents,” the AOR of the “Park” was not missing the files referred to in paragraph 2.
The AOR showed the files to the RIG auditor electronically. Also, a Security Plan was not
requested for the CA with FMC. The Mission requests that Page 11, paragraph two be deleted or
rewritten substituting “AOR” for “She”.

Page 11: With reference to 3rd paragraph “Site visits to the Park”, we concur that site visits were
not occurring regularly due to the difficulty of access, although the AOR, former EGE Chief, and
Monitoring and Evaluation Specialist, performed an over-flight of the Park and an in-depth site
visit to Control Post 16 in October 2010. The AOR regularly visits the local implementing
partner’s office in Lima and Tarapoto, and meets with The Field Museum Project Director
regularly. EGE will arrange on the ground site visits on a regular basis.

Page 11: In reference to the first paragraph, the AOR of the former PAPA with the USFS was
based in Washington; therefore the AOR designation letter is in Washington. The current
AOR’s designation letter for the PAPA was provided to the auditors. USAID/Peru requests
modification of the first paragraph to clarify which documents should be sought in Washington
under the previous management of the PAPA, and which documents should be on file in the
Mission.

Page 12: The section entitled “Mission did not conduct evaluations”, paragraph 3, should be
revised to take into account that a final evaluation was done for the first award to FMC. The
results and lessons learned were used for developing the second proposal. The Mission is
scheduling a final evaluation to be completed by May 2013. We also suggest that the word
“consumed” be replaced with “received.”

Page 13: Regarding the reasons for selecting Chemonics to implement Peru Bosques,
USAID/Peru clarifies that the use of an internet-based information management system for
managing the project was neither a requirement in the RFP nor mentioned in the Chemonics’
proposal. The system management information was an initiative by the COP and the M&E
Specialist of Peru Bosques, after the award of the contract.

Page 14: The draft should be revised to remove the characterization as "ignorance" relative to
actions that are incomplete or about which there is a difference in judgment. For example, the


                                                                                                 28
                                                                                      Appendix II


Park Guard Center in La Polvora (picture in p.14), in the buffer zone of PNCAZ, is in a
particularly dangerous place where a terrorist was captured a few months before the auditors’
visit. There are no markings placed or exhibited because of security reasons. As mentioned
earlier, a waiver was approved on August 28, 2012.

Page 14: The draft might re-phrase "had a verbal waiver" to say that there was "an
understanding had been discussed orally that a waiver was appropriate in certain
circumstances."

Page 15: The last full paragraph about the purpose of branding and marking could be
summarized as, “Branding and marking is required by ADS 320.”




                                                                                                29
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
